APPENDIX A
DECISION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
William Pryor Chief Judge, Grant and Tjoflat, Circuit
Judges.
[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-15182

D.C. Docket No. l'19-cv-00258-TFM-MU

APPENDIX A

9

LEWIS ARCHER,
SHEARIE ARCHER,

Plaintiffs-Appellants,
versus
AMERICA’S FIRST FEDERAL CREDIT UNION,
Defendant-Appellee.

Appeal from the United States District Court for the
Southern District of Alabama

(February 1, 2021)
Before WILLIAM PRYOR, Chief Judge, GRANT and
TJOFLAT, Circuit Judges. GRANT, Circuit Judge:
After a state court granted America’s
First possession of the Archers’ home, Lewis and
10

Shearie Archer sued in federal court asserting
violations of the Real Estate Settlement Procedures
Act but because their claims were fully litigated
in the earlier state court action—or, at least, should
have been—the doctrine of res judicata prevents us
from giving those issues a second look.
I.
We accept as true all of the Archers’ factual
allegations in this appeal of a ruling on a motion to
dismiss. Luke v. Gulley; 975 F.3d 1140, 1143 (l 1th
Cir. 2020). When Lewis and Shearie Archer stopped
paying the mortgage on their home, America’s First
declared the mortgage in default. It attempted to
foreclose seven times over nineteen months—a
“stressful” and “cruel” exercise that culminated in a
foreclosure sale on January 29, 2016. Though their
house sold, the Archers refused to leave. The stress

11

had caused Shearie to go into a diabetic coma, which
she remained in for seven days.
Because the Archers did not vacate the premises,
America’s First initiated an ejectment action in the
Circuit Court of Mobile County, Alabama. The
Archers hired an attorney; they say they told him to
bring claims under the Real Estate Settlement
Procedures Act in federal court. He never did. But
the Archers did raise various Real Estate Settlement
Procedures Act allegations as defenses in the state
court action. In their initial pleading, they asserted
that the foreclosure sale was conducted “contrary to
federal law including, but not limited to” the Real
Estate Settlement Procedures Act. And in response
to America’s First’s motion for summary judgment,
they claimed that America’s First engaged in “Dual
Tracking” by proceeding with foreclosure during the
mortgage modification process. They also argued that
12

America’s First failed to notify them of their appeal
rights under 12 C.F.R. § 1024.41(f)(1) during the
modification process.
The state court nonetheless granted summary
judgment for America’s First and awarded it
possession of the property. The Archers, now
proceeding pro se, appealed the order to the Alabama
Court of Civil Appeals. That court affirmed the trial
court’s judgment.
Two weeks later, the Archers commenced this
action in federal court. Their claim was “filed
pursuant to section 6(f) of’ the Real Estate
Settlement Procedures Act. They alleged that
America’s First engaged in “Dual-Tracking,” in
violation of 12 C.F.R. §§ 1024.4l(f)(l)(i) and
1024.4l(i). America’s First moved to dismiss, arguing
that the claims were barred by the Act’s three-year
statute of limitations and by res judicata. It also
13

argued that any new claims brought under the Act
were barred because the Archers failed to raise them
as compulsory counterclaims in the earlier action.
The district court agreed that the Archers had
missed the Act’s filing deadline, and dismissed their
claims on that basis.
This appeal followed. The Archers contend that
the “extraordinary circumstances” of their case
warrant equitable tolling of the Act’s statute of
limitations. America’s First disagrees, and also says
that the Archers’ claims are barred by the doctrine of
res judicata either way.
II.
We review de novo the district court’s grant of a
motion to dismiss. Hill v. White, 321 F.3d 1334, 1335
(llth Cir. 2003). We may affirm the district court’s
judgment for any reason supported by the record,

14

even if not relied upon by the district court. United
States v. Al-Arian, 514 F.3d 1184, 1189 (llth Cir.
2008).
III.
When asked to give res judicata effect to a state
court judgment, we must apply the res judicata
principles of “the state whose decision is set up as a
bar to further litigation.” Kizzire v. Baptist Health
Sys., Inc., 441 F.3d 1306, 1308 (llth Cir. 2006)
(quoting Amey, Inc. v. GulfAbstract & Title, Inc.,
758 F.2d 1486, 1509 (llth Cir. 1985)). Because
America’s First contends that the Alabama state
court judgment bars this federal action, the res
judicata principles of Alabama apply.
Under Alabama law, the essential elements of
res judicata are^ “(l) a prior judgment on the merits,
(2) rendered by a court of competent jurisdiction, (3)

15

with substantial identity of the parties, and (4) with
the same cause of action presented in both actions.”
Id. at 1308-09 (quoting Equity Res. Mgmt., Inc. v.
Vinson, 723 So. 2d 634, 636 (Ala. 1998)). If those four
elements are met, then any claim that was—or could
have been—adjudicated in the earlier action is
“barred from future litigation.” Id. at 1309.
The first three elements are easily satisfied here.
The trial court’s grant of summary judgment, which
was affirmed by the Alabama Court of Civil Appeals,
clearly constitutes a prior judgment on the merits.
Ex parte Jefferson County, 656 So. 2d 382, 385 (Ala.
1995). There is no doubt that both the Circuit Court
of Mobile County and the Alabama Court of Civil
Appeals are courts of competent jurisdiction; federal
and state courts have concurrent jurisdiction over
Real Estate Settlement Procedure Act claims. See 12
U.S.C. § 2614. And, of course, the parties in this
16

action and in the ejectment action are the same—
they have simply switched places.
That leaves us with the question of whether it
was the “same cause of action” in both actions.
Alabama uses the “substantial evidence” test to
answer this question. Kizzire, 441 F.3d at 1309. If
the same evidence substantially supports both
actions, this element is met. Id. Res judicata applies
not just to the precise legal theories advanced in the
earlier case, but to “all legal theories and claims
arising out of the same nucleus of operative facts.”
Id. (quoting Old Republic Ins. Co. v. Lanier, 790 So.
2d 922, 928 (Ala. 2000)).
Both the state and federal court actions
concerned the same nucleus of operative facts. In
state court, America’s First sought possession of the
Archers’ home based on the foreclosure sale; the
Archers defended by saying that the foreclosure sale
17

was void under the Real Estate Settlement
Procedures Act. The Archers also argued that
America’s First failed to provide the proper
notifications and that America’s First engaged in
“Dual Tracking.” Then, in federal court, the Archers’
newly filed claims again centered on the foreclosure
of their home. The couple alleged that America’s
First failed to provide the proper notifications and
violated “Dual-Tracking protection laws” when it
foreclosed on their home. Indeed, most of the facts
and allegations from their present complaint came
from their various state court filings. Each of their
arguments in federal court arise from the exact same
transaction and occurrence as that of the earlier
litigation.
There is no question that the Archers’ federal
complaint attempts to raise claims arising out of the
same operative facts as the state court action.
18

Kizzire, 441 F.3d at 1309. And because the same
evidence “substantially supports” both suits, all four
elements of res judicata are met. Id. at 1310. Though
the Archers may not have raised the exact same
claims in each suit, the legal theories in both arise
out of the same nucleus of operative facts. In these
circumstances, permitting the Archers to proceed
would be giving them a second bite at the apple,
which we cannot do.1
The Archers devote two sentences of their initial
brief to arguing that the district court violated the
“Supremacy Clause” when it refused to stay the
Alabama court’s writ of possession while their case
was ongoing. But the Archers provide no additional
support for the idea that a district court might have

1 Because we hold that the Archers’ claims were barred by res
judicata, we need not consider whether they were also barred
by the Real Estate Settlement Procedure Act’s statute of
limitations.
19

the power to collaterally review a state court
judgment regarding the validity of a foreclosure
proceeding. This argument was not fully briefed, so it
is abandoned. Access Now; Inc. v. Sw. Airlines Co.
385 F.3d 1324, 1330 (llth Cir. 2004).

Because the Archers’ complaint raises claims
that arise out of the same nucleus of operative fact as
the earlier state court action, the doctrine of res
judicata bars their claims. For that reason, we
AFFIRM the judgment of the district court.

20

APPENDIX B

IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
LEWIS ARCHER and
SHEARIE ARCHER
Plaintiffs,
vs.

CIV. ACT. NO. L19-cv-258-TFM-MU

AMERICAS FIRST FEDERAL CREDIT UNION
Defendant.
MEMORANDUM OPINION AND ORDER
On September 17, 2019, the Magistrate Judge
entered a Report and Recommendation (Doc. 26)
which recommends denial of the Plaintiffs’ Motion to
Recall Writ of Possession (Doc. 20) and the granting
of Defendant’s Motion to Dismiss (Docs. 15, 19).
Plaintiffs timely filed objections (Doc. 27).
APPENDIX B

21

In their objections, Plaintiffs argue they were
diligent throughout the ejectment process and the
state court proceedings regarding their home. Doc.
27 at 1. They argue that “there were extraordinary
circumstances beyond [their] control that prevented
[them] from filing this lawsuit sooner.” Id. They
further assert they asked their attorney from the
state-proceeding to file in federal court and were told
that it was. Id. At 3. They request that the Court
apply the doctrine of equitable tolling and suspend
the running of the statute of limitations from
February 2, 2016 to May 31, 2019 (the date the
instant action was filed). Id.
A claim under the Real Estate Settlement
Procedures Act (“RESPA”) “may be brought within 3
years from the date of the occurrence of the
violation.” 12 U.S.C. § 2614. Based on their
objections, Plaintiffs essentially concede that the
22

three-year statute of limitations has expired on their
claims. The Court then turns the request for
equitable tolling the statute of limitations.
Courts “look to the relevant statute for guidance
in determining whether equitable tolling is
appropriate in a given situation.” Arce v. Garcia, 434
F.3d 1254, 1260 (11th Cir. 2006). However, equitable
tolling is an extraordinary remedy only applicable in
exceptional circumstances and should be extended
only sparingly. Justice v. United States, 6 F.3d 1474,
1479 (11th Cir. 1993) (citing Irwin v. Veterans
Administration, 498 U.S. 89, 96, 111 S. Ct. 453, 45758, 112 L. Ed. 2d 435 (1990). “The general test for
equitable tolling requires the party seeking tolling to
prove (l) that he has been pursuing his rights
diligently, and (2) that some extraordinary
circumstance stood in his way and prevented timely
filing.” Villareal v. R.J. Reynolds Tobacco Co., 839
23

F.3d 958, 971 (11th Cir. 2016) (quotation omitted).
There is some split in authority on whether the
RESPA statute of limitations may be equitably
tolled. Compare, e.g. Hardin v. City Title & Escrow
Co., 797 F.2d 1037, 1041 (D.C. Cir. 1986 (finding that
equitable tolling does not apply to RESPA) with
Lawyers Title Ins. Corp. v. Dearborn Title Corp., 118
F.3d 1157, 1166-67 (7th Cir. 1997) (finding RESPA is
subject to equitable tolling). However, it would
appear that the Eleventh Circuit, though not
addressed directly in a published opinion, would
determine RESPA is subject to equitable tolling. See
Pedraza v. United Guar. Corp., 313 F.3d 1323 (11th
Cir. 2002) (acknowledging the potential application
of equitable tolling to RESPA actions); McCarley v.
KPMGInt’l, 293 F. App’x 719, 723 (11th Cir. 2008)
(an unpublished Eleventh Circuit case noting the
circuit split and the Eleventh Circuit Court of
24

Appeals’ acknowledgement in Pedraza). However,
despite this, the Court finds that even if equitable
tolling does apply in RESPA cases, the requirements
would not be met here.
By their own statements in the objections,
Plaintiffs were aware of the claim and requested
their attorney to file the case. These are not
extraordinary circumstances beyond their control nor
is that failure to file a claim a basis for tolling the
statute of limitations. Further, though the Court is
certainly sympathetic to the medical stress and its
resulting distractions, it still does not provide a legal
basis for tolling the claims.
Therefore, after due and proper consideration of
all portions of this file deemed relevant to the issues
raised, and a de novo determination of those portions
of the Report and Recommendation to which
objection is made, the Report and Recommendation
25

of the Magistrate Judge made under 28 U.S. C. §
636(b)(1)(B) is ADOPTED as the opinion of this
Court. Accordingly, it is ORDERED and the
Plaintiffs Objections are OVERRULED, Defendants
Motion to Dismiss (Doc. 15) as supplemented (Doc.
19) is GRANTED, and the Motion to Recall Writ of
Possession (Doc. 20 is DENIED.
DONE and ORDERED this the 2nd day of
December 2019.
Is/ Terry F. Moorer
TERRY F. MOORER
UNITED STATES DISTRICT JUDGE

26

APPENDIX C
MAGISTRATE JUDGES REPORT AND
RECOMMENDATION
IN THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
LEWIS ARCHER and SHEARIE : ARCHER,
^Plaintiffs, •
vs.

CA 19-0258-TFM-MU

AMERICA’S FIRST FEDERAL CREDIT UNION,
Defendant.
REPORT AND RECOMMENDATION
This cause is before the Magistrate Judge for
issuance of a report and recommendation, pursuant
to 28 U.S.C. § 636(b)(1)(B) and S.D. Ala. GenLR
72(a)(2)(S), on Plaintiffs’ second-amended complaint
(see Doc. 7), Defendant America’s First Federal
APPENDIX C
27

Credit Union’s (“AFFCU’s”) motion to dismiss
second-amended complaint (Doc. 15; see also Doc. 16
(AFFCU’s evidentiary submission)), as supplemented
(Doc. 19), Plaintiffs response in opposition, with
attachments (Doc. 23), and AFFCU’s reply (Doc. 24).
Upon consideration of these pleadings, as well as
other pleadings in the file (Doc. 20 (Plaintiffs’ motion
to recall writ of possession and brief); Doc. 22
(Defendant’s response in opposition); Doc.25
(Plaintiffs’ response to Defendant’s response)), the
Magistrate Judge RECOMMENDS that the Court
GRANT AFFCU’s motion to dismiss second-amended
complaint (Doc. 15), as supplemented (Doc. 19), and
DENY Plaintiffs’ motion to recall writ of possession
(Doc. 20).

28

FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Lewis Archer initially filed a
complaint against AFFCU in this Court on May 31,
2019. (Doc. l). Following entry of an order
instructing Plaintiff to file an amended complaint
and an amended motion to proceed without
prepayment of fees (or, alternatively, pay the $400.00
filing fee) (see Doc. 4), the Plaintiffs ultimately paid
the filing fee (Doc. 6) and filed a second-amended
complaint (Doc. 7) on July 2, 2019.1 In the second-

i

Plaintiff Lewis Archer filed an amended complaint on

June 10, 2019 (Doc. 5) before he received the undersigned’s
Order dated June 7, 2019 (Doc. 4). Thus, the complaint filed by
Lewis and Shearie Archer on July 2, 2019 (Doc. 7) constitutes
the operative pleading in this case. See, e.g., Rosa v. Florida
Dep’t of Corrections, 522 Fed.Appx. 710, 714 (11th Cir. June 26,
2013) (“Under the Federal Rules of Civil Procedure, ‘an
amended complaint supersedes the initial complaint and
29

amended complaint, Plaintiffs specifically aver that
this Court may exercise federal question jurisdiction,
28 U.S.C. § 1331, and that their claims are being
brought pursuant to § 6(f) of the Real Estate
Settlement Procedures Act (RESPA), 12 U.S.C. §
2605(f)(l)-(3), and 12 C.F.R. § 1024.4l(a)2. (See Doc.
7, at 1-2). Plaintiffs set forth two counts in their
complaint- Count 1 asserts AFFCU’s violation of the
dual-tracking provisions of 12 C.F.R. §
1024.4l(f)(l)(i) by virtue of Defendant making a
preforeclosure first notice of filing on July 11, 2014
without Plaintiffs’ mortgage being 120 days late
(Doc. 7, at 2) and Count 2 asserts AFFCU’s violation
of the dual-tracking provisions of 12 C.F.R. §

becomes the operative pleading in the case.”’ (quoting Krinsk v.
SunTrust Banks. Inc., 654 F.3d 1194, 1202 (11th Cir. 2011)).
2 “A borrower may enforce the provisions of this section
pursuant to section 6(f) of RESPA (12 U.S.C. 2605(f)).” 12
C.F.R. § 1024.41(a).
30

1024.4l(i) “by requesting a duplicate second
application in the beginning of October of 2014 after
the ArcherDs had already gone through a thorough
[application process with submitted tax returns at
the beginning of June 2014.” (Doc. 7, at 4). The
factual underpinnings of Plaintiffs’ claim are set
forth in the second-amended complaint and read, in
relevant measure, as followsLewis and Shearie Archer, husband and wife[,]
executed a note and mortgage, dated May 9, 2008,
payable to AFFCU in the principal amount of
$165,000.00 secured by the following property:
Lot 1, Tara Estates as recorded in Map Book
20, Page 89, In the Probate Office of Mobile County,
Alabama.
The street address of the property is: 9070
O’Hara Drive Mobile, Alabama 36695. The mortgage

31

was recorded in the office of the Judge of Probate of
Mobile County, Alabama, in Instrument Number
2008040886, Book 6333, Page 996, C. 38.
In early June of 2014, AFFCU sent the
Archers D to Hardest Hit Alabama to qualify for
mortgage assistance help 0 since [the] $1,728
monthly payments were excessive due to Lewis
Archer’s decrease in income and Shearie Archer’s
health challenges.
Hardest hit Alabamaf,] in conjunction with
AFFCUt,] put the Archers through a thorough
qualifying process that involved [the] submission] of
tax returns. The Archers successfully qualified for
$30,000 maximum of approved help towards
permanent modification. Since the Archers were
qualified and approved, AFFCU was to fax a simple
modification plan to 1(888)207-1439 for the $30,000
to be sent and applied. 0
32

On July 9th, 2014, AFFCU Branch Manager
Jason Fuller met with Mr. Archer in his office with
Assistant Vice President Mark Shadddix on the
telephone. The Assistant Vice President confirmed to
the Branch Manager and Mr. Archer that AFFCU
did in fact accept the $30,000 help. D
Since all were in agreement, the contents of
the meeting were memorialized by Mr. Archer on the
same day and emailed to the Assistant Vice
President so it would be stamped dated. 0 On July
11th, 2014, Collection Manager Sharon Richardson
sent the Archers a Right to Cure letter towards
foreclosure. D Yet, the memorialized contents of the
meeting were emailed again on July 14th[,] 2014[,]
this time by the Branch Manager himself to the
Assistant Vice President with no complaints,
confusion or misunderstanding of plan participation.

0
33

AFFCU simply reneged on the promise and
did not fax to Hardest Hit Alabama the already
written simple permanent modification plan to be
funded by the available $30,000. D
It became clear that AFFCU [,] instead,
stopped accepting payments on June 30th, 2014;
[f]alsely sent notice on July 11th, 2014 that the
ArcherQs were delinquent on the loan[;]3 and started
a series of seven foreclosure attempts while taking
the Archers through various modification exercises.
D Those two tracks ended 19 months later on
January 29th [,] 2016 with an official foreclosure and
a letter ending modification efforts both on the same

day. 0

3 In the letter penned to the Archers on July 11, 2014, AFFCU
declared the mortgage in default. (See Doc. 7, at 6 & Exhibit
AA).
34

The dates of the seven foreclosure attempt
letters while going through the modification
processes are- 1. (September 5th. 2014)M 2. (January
30th. 2015)[.I 3. (May 28th. 2015)1.1 4. (August 19th.
2015) M 5. (November 20th. 2015) M 6. (January 4th.
2016)[. and actual foreclosure (January 29th, 2016).
D AFFCU published the Archers’ home for
foreclosure purposes at least thirteen times D (Sept
10th, 2014[,] Sept 17th, 2014[,] Sept 24th, 2014, [,]
June 3rd, 2015[,] June 10th, 2015[,] June 17th,
2015[,] August 26th, 2015[,] Sept 2nd, 2015[,] Sept
9th, 2015[,] Dec 2nd, 2015[,] Dec 9th, 2015[,] Dec
16th, 2015[,] Jan 10th, 2016.) □
(Id. at 5-7 (internal citations omitted; footnote added;
emphasis in original)).

4

4
The facts submitted by the Archers in support of their
federal-court complaint are virtually identical to the statement
of facts contained in Lewis Archer’s February 20, 2019 response
to brief of appellee AFFCU filed in the Alabama Court of Civil
35

Although the operative pleading in this case
(Doc. 7) concludes with the salient fact that the
actual foreclosure took place on January 29, 2016
(see id. at 7),5 much more occurred after that date
and up to May 31, 2019, the date Lewis Archer
initially instituted this action in this Court (see Doc.
1).
Based on the Archers’ refusal to vacate the
premises of 9070 O’Hara Drive, Mobile, Alabama
36695 following the foreclosure sale, a refusal which
exists to this day (see, e.g., Doc. 25, at 3 (immediately
inserted following the signature line on Plaintiffs’
August 26, 2019 response to Defendant’s response to
Plaintiffs’ motion to recall writ of possession is the

Appeals, by and through his attorney, Marcus McCrory.
(Compare id. with Doc. 16, Exhibit 11, at 8-12).
5 AFFCU purchased the real property at 9070 O’Hara Drive,
Mobile, Alabama 36695 at the mortgage foreclosure sale held on
January 29, 2016. (Doc. 16, Exhibit 1, April 11, 2016
COMPLAINT, at 1). (Continued)
36

address of 9070 O’Hara Drive, Mobile, AL 36695)),
AFFCU instituted an ejectment action against the
Archers, in accordance with § 6-6-280 of the Alabama
Code,6 in the Circuit Court of Mobile County,
Alabama on April 11, 2016. (Doc. 16, Exhibit 1
COMPLAINT; see also id., Exhibit 9, at 1-2
(“[AFFCU] filed in the Mobile Circuit Court D a
complaint seeking to eject Lewis Archer and Shearie
Archer from real property AFFCU had purchased at
a January 29, 2016, foreclosure sale[.]”)). In an
amended answer and counterclaim, filed January 10,
2017 in the state court action, the Archers asserted
as a defense that the “foreclosure sale was conducted
contrary to federal law including, but not limited to [,]
RESPA, 12 USC §2600, etD al.[,] and is, therefore,

6 “A plaintiff commencing an action for the recovery of lands or
the possession thereof has an election to proceed by an action of
ejectment or by an action in the nature of an action of ejectment
as is provided in subsection (b) of this section.” Ala. Code § 6-6280(a).
37

void and of no legal effect [,]” (Doc. 16, Exhibit 2, at 2)
and counterclaimed for breach of mortgage contract
and declaratory judgment (id. at 2-3). Additionally
in a January 24, 2018 response to AFFCU’s renewed
motion for summary judgment, the Archers argued
that AFFCU had no ownership interest in the subject
property or any right to pursue ejectment based upon
the following1. [AFFCU] is prohibited by Federal Law from
proceeding with foreclosure if an application to
modify has been submitted.
2. Archer submitted the complete application in
October 2014 D.
3. During the modification process [AFFCU] never
notified him that his application was denied and
never notified him of his appeal rights under 12 CFR
1024.41 (f)(1)

38

4. By proceeding with the foreclosure during the
modification process, [AFFCU] engaged in “Dual
Tracking[“] which is prohibited. Since they were
prohibited by the “Dual Tracking” Law from
foreclosing, any purported foreclosure sale is void or
voidable under federal law. (Doc. 16, Exhibit 3).
On June 25, 2018, the Circuit Court of Mobile
County, Alabama entered a judgment in favor of
AFFCU and against the Archers (based on AFFCU’s
motion for summary judgment), finding AFFCU
entitled to possession of the subject property and
authorizing issuance of a Writ of Possession by the
Clerk of Court to the Sheriff of Mobile County,
Alabama “for the execution of such writ.” (Doc. 16,
Exhibit 4). On July 23, 2018, Lewis Archer filed a
motion to alter, amend or vacate the summary
judgment entered in favor of AFFCU, arguing that
there were a number of disputed facts prohibiting the
39

granting of AFFCU’s motion (including, whether
AFFCU wrongfully engaged in dual tracking by
proceeding with foreclosure while the loan
modification process was still pending and whether
AFFCU provided reasonable notice of the right to
reinstate pursuant to federal regulations) and
additionally arguing that “Mr. Archer” had “the right
to bring an affirmative action to attack the
foreclosure because the required Federal Regulations
were not followed relating to Counseling and the
right to reinstate the mortgage, his counterclaim
does this.” (Doc. 16, Exhibit 5, at 1 & 2). Following
the August 14, 2018 denial of the motion to alter,
amend or vacate (Doc. 16, Exhibit 6), Lewis Archer
filed notice of appeal to the Alabama Supreme Court,
which was deflected to the Alabama Court of Civil
Appeals (see Doc. 16, Exhibit 7). In the docket
statement to the Alabama Supreme Court completed
40

by counsel for Lewis Archer, Marcus McCrory, on
August 24, 2018, the following issues were identified*
“Whether the foreclosure was rendered void or
voidable because the Credit Union failed to provide
modification, failed to provide notice of acceleration,
the right to reinstate and notice of foreclosure
pursuant to the mortgage and Federal Law. Also
whether the Credit Union engaged in ‘Dual
Tracking’[.]” (Doc. 16, Exhibit 8, at 2). After the
parties briefed the issues, the Alabama Court of Civil
Appeals issued an opinion on May 17, 2019 affirming
the judgment of the Mobile County Circuit Court.
(Doc. 16, Exhibit 9.) With this decision, Alabama’s
civil appellate court thus affirmed that AFFCU was
properly awarded possession of the subject property.
(Compare id. with id., Exhibit 4). The Alabama Court
of Civil Appeals issued a certificate of final judgment

41

of affirmance on June 5, 2019 (Doc. 15, Exhibit 10),
ending the state court litigation.
Before the state court litigation was fully
concluded, Lewis Archer filed a complaint in this
Court on May 31, 2019 (Doc. l) and, ultimately, the
Archers (both of them) filed a second-amended
complaint on July 2, 2019 (Doc. 7), the contents of
which the undersigned will not again address.
AFFCU filed its motion to dismiss second amended
complaint on July 26, 2019 (Doc. 15). AFFCU
contends that Plaintiffs’ claims are barred by the
applicable RESPA statute of limitations (id. at 6-7)
and by res judicata (id. at 7-ll). AFFCU concludes
its brief with the argument that the Archers waived
their right to assert any claim under RESPA by
failing to raise each such claim as a compulsory
counterclaim in the state court action. (Id. at 11-12).

42

On August 1, 2019, AFFCU filed a supplement
to its motion to dismiss second amended complaint.
(Doc. 19.) AFFCU attached to its brief pleading a
document Lewis Archer filed in the Circuit Court of
Mobile County, Alabama that same day, August 1
2019, entitled “NOTICE OF REMOVAL” but
containing the style of this action and averring, as
follows- “The following matter was MOVED on
5/31/2019 to Federal District Court. AMERICA’S
FIRST FCU V. LEWIS ARCHER ET AL 02-CV-2016900716.00U Please recall the Writ of Possession.”
(Doc. 19, Exhibit 12.) AFFCU argues in its
supplement that the foregoing pleading filed in the
state court action is but “further evidence that the
state court action and this federal action are ‘the
same cause of action’ and that they arise out of the
same transaction or occurrence [,]” such that this
federal action should be dismissed. (Doc. 19, at 2).
43

The Defendant’s August 1, 2019 supplement to
its motion to dismiss prompted the Archers to file a
motion to recall writ of possession on August 2, 2019.
(See Doc. 20, at ^ 3 (“Since the defendant filed a
motion on 8/1/2019 to make this more than it is, we
therefore motion the court to issue an order for the
defendant itself to immediately recall the writ of
possession and cease and desist all such actions
while this case is ongoing.”)). Attached to the
Plaintiffs’ motion is a notice placed on the door of the
residence at 9070 O’Hara Drive, Mobile, Alabama
36695, advising that eviction is “to take place 8/15/19
9-00 AM.” (Doc. 20, Exhibit Q). 7

7 On August 19, 2019, AFFCU filed its response in opposition
to Plaintiffs’ motion to recall writ of possession. (Doc. 22.)
Initially, Defendant argues the motion is due to be denied
because a court of competent jurisdiction issued the writ of
possession/execution and Plaintiffs cite no legal or factual
44

support for the relief they seek. (Id. at 1.) AFFCU also contends
that the proper course for challenging the Mobile County
Circuit Court’s order authorizing issuance of a writ of
possession by the Clerk of Court to the Sheriff of Mobile
County, Alabama for the execution of such writ was an appeal
to Alabama’s appellate courts, which is exactly the route Lewis
Archer took. (See id. at 2). And since the Alabama Court of Civil
Appeals affirmed the judgment of the Mobile County Circuit
Court, with that court issuing a final certificate of judgment on
June 5, 2019, “AFFCU is within its rights to act on the order
issued by the Circuit Court of Mobile County, and Plaintiffs’
improper attempt to collaterally attack a valid order from an
Alabama state court of competent jurisdiction should be
rejected.” (Id.) In responding to AFFCU’s response (see Doc. 25),
the Archers simply aver that the Defendant did not let the state
appellate process run its course without sending the Sheriff out
to try to evict them; instead, according to the Archers, AFFCU
sent the Sheriff out to their home twice during the state
appellate process to place eviction notices on their door. (See id.
at 2-3 & Exhibit X.) The Archers conclude their response as
follows: (Continued)
45

The Archers filed their response to AFFCU’s
motion to dismiss on August 19, 2019. (Doc. 23).
Initially, the Archers assert that the state courts of
Alabama never ruled on the federal issue that is
presented in the instant lawsuit8 and could have not

“This recent eviction attempt [advising of eviction to
take place on 8/15/19] in the middle of this federal litigation is a
shameful repeated action tactic on the part of the defendant to
put pressure on the plaintiffs to affect the outcome of this
federal lawsuit.” (Id. at 3.) Nowhere in their response, however,
do the Archers establish how this Court has the power or
jurisdiction to recall a writ issued by a court of competent
jurisdiction (that is, the Mobile County Circuit Court). (See
generally Doc. 25; compare id. with Doc. 20 (in their initial
motion, Plaintiffs also fail to point to any caselaw which
establishes this Court’s power or jurisdiction to recall a writ of
possession issued by a state court of competent jurisdiction)).

8

The Archers identified the federal issue as follows:
“Should defendant ‘AFFCU’ have started foreclosing on the
46

ruled on this issue both because “[a] non-judicial
foreclosure like the Archer Qs[‘] is not considered to
be a foreclosure in an Alabama State Court
ejectment actionD” and because “[t]he defendant’s
failure to comply with Federal loss-mitigation
regulations concerning the $30,000 that it sent to the
Archers to get cannot be asserted as a defense in an
Alabama state court ejectment action.” (Id. at 3-4).
Plaintiffs then go on to argue that they did attempt
to assert, “as best as possible 0 without the benefit of
counselt,]” the two federal issues in this lawsuit as
compulsory counterclaims in their reply brief filed in
the Alabama Court of Civil Appeals (see id. at 5);
however, according to the Archers, Alabama’s civil
appellate court addressed neither issue (id.). Finally,

Archers[’] home of 27 years in the first place, while having
access to $30,000 of federal loss-mitigation funds it sent the
Archers to get, making it impossible for the mortgage to have
been 120 days in arrears?” (Doc. 23, at 3). (Continued)
47

Plaintiffs contend that two res judicata elements are
not met (that is, there was no final judgment on the
merits and there was no decision rendered by a court
of competent jurisdiction) (id. at 6) and that this case
is not barred by the statute of limitations (id. at 7
(“The defendant’s illegal predatory conduct was
brought to the attention of Federal Authority with
judicial powers D National Credit Union
Administration [NCUA] since January 2015. The
defendant was found to have broken federal law,
overcharging through temporary modifications that
it strongly encouraged. (Exhibit O and Exhibit N). 9

9 By letter dated October 21, 2015, the Office of Consumer
Protection of the National Credit Union Administration
(“NCUA”) did not make a specific finding that AFFCU broke
federal law; instead, the consumer protection arm of NCUA
determined that based on AFFCU’s actions in “subsequently”
providing the Archers with a copy of the appraisal and
48

As the defendant points out this has been ongoing
since then and the defendant is finally in federal
court.” (footnote added))).
In its reply, AFFCU simply reiterates why
Plaintiffs’ claims are barred by the applicable statute
of limitations and res judicata and, as well, why and
how Plaintiffs waived their right to assert a claim

refunding them the cost of the appraisal, it was closing its file
based on a final resolution of the matter. (Doc. 7, Exhibit O).
This arm of the NCUA went on to inform Lewis Archer that
since it could not provide legal advice, he might want to consult
with private counsel to inform his “ability to pursue a private
right of action if one exists.” (Id.).
As for Exhibit N, that exhibit provided by Plaintiffs makes
reference to $923.24 in finance charges assessed against the
Archers by AFFCU sometime before September of 2015 that
were subsequently credited to the Archers[’] mortgage account
as reflected in the September 2015 statement. (See Doc. 7,
Exhibit N).
49

under RESPA by failing to raise it as a compulsory
counterclaim in the Mobile County Circuit Court.
(See Doc. 24). In addressing the statute of limitations
argument, AFFCU explains why Plaintiffs’ response
provides further support for why their claims are
time-barred. (Id. at 1-2).
First, Plaintiff argues that AFFCU’s “illegal
predatory conduct was brought to the attention of
Federal Authority with judicial powers (NCUA)
National Credit Union Administration since January
2015.” Id. (emphasis added). January 2015 is more
than three years before this lawsuit was filed. Given
that the purported “illegal predatory conduct” was
brought to the attention of the NCUA more than
three years before this suit was filed is further
evidence that Plaintiffs’ claims are time barred.
Second, Plaintiffs cite to Exhibits O and N to
support their argument that AFFCU “was found to
50

have broken federal law, overcharging through
temporary modifications that it strongly
encouraged.” Id. Exhibit O is dated October 15,
2015. Doc. 7, Page ID #118-119. Exhibit N pertains
to a purported overcharge of $923.24 in finance
charges that were credited back to Plaintiffs in
September 2015. Doc. 7, Page ID #116-117. Again,
these allegations of wrongdoing occurred more than
three years before this lawsuit was filed. (Id.).
CONCLUSIONS OF LAW
A. Motion to Dismiss Standard and Judicial
Notice. As reflected above, AFFCU’s principle
arguments in support of dismissal of the secondamended complaint are that the Archers’ claims are
barred by the applicable statute of limitations and by
the doctrine of res judicata. The Eleventh Circuit has
made clear that “a motion to dismiss for failure to
state a claim is an appropriate method for raising a
51

statute of limitations defense [,]” Edwards v. Apple
Computer, Inc., 645 Fed.Appx. 849, 851 (llth Cir.
Mar. 9, 2016), citing Mann v. Adams Realty Co., Inc.,
556 F.2d 288, 293 (5th Cir. 1977), and, as well, is an
appropriate vehicle by which to raise the Rule 8(c)
affirmative defense of res judicata “where the
existence of the defense can be determined from the
face of the complaint[,]” Solis v. Global Acceptance
Credit Co., L.P., 601 Fed.Appx. 767, 771 (llth Cir.
Jan. 28, 2015), citing Concordia v. Bendekovic, 693
F.2d 1073, 1075 (llth Cir. 1982).
When deciding a 12(b)(6) motion to dismiss, a
court will “’primarily consider the allegations in the
complaint,’ but ‘. . . is not [always] limited to the four
corners of the complaint.’” Halmos v. Bomardier
Aerospace Corp., 404 Fed.Appx. 376, 377 (llth Cir.
Dec. 7, 2010), quoting Long v. Slaton, 508 F.3d 576,
578 n.3 (llth Cir. 2007) (other citation omitted).
52

Indeed, the Eleventh Circuit has made clear that “a
district court may take judicial notice of matters of
public record without converting a Rule 12(b)(6)
motion into a Rule 56 motion.” Id. (citations
omitted); see also id. (“The district court’s
determination did not exceed the permissible scope of
a 12(b)(6) motion to dismiss—the complaint,
attachments to the complaint, and matters of public
record.”). Of particular import in this case, the
Eleventh Circuit has held that “[c]ourts may take
judicial notice of publicly filed documents, such as
those in state court litigation, at the Rule 12(b)(6)
stage.” United States ex rel. Osheroff v. Humana,
Inc., 776 F.3d 805, 811 n.4 (llth Cir. 2015) (citations
omitted); see also Solis, supra, 601 Fed.Appx. at 771
(in affirming the grant of a motion to dismiss on res
judicata grounds, the Eleventh Circuit concluded
that “the district court properly considered its own
53

records in resolving the defendants’ motion to
dismiss.”). Accordingly, this Court can properly
consider not only those documents attached to
Plaintiffs’ second-amended complaint but, as well,
those publicly filed documents in the state court
litigation between AFFCU and the Archers.
B. Statute of Limitations on 12 U.S.C. S 2605(f)
RESPA Claims. The Archers’ second-amended
complaint makes clear that their action is filed
pursuant to § 6(f) of RESPA, 12 U.S.C. §
“2605(f)(l)(3).” Plaintiffs specifically assert two
counts seeking to enforce the provisions of 12 C.F.R.
§ 1024.41 (see Doc. 7, at 2-4). See 12 C.F.R. §
1024.41(a) (“A borrower may enforce the provisions
of this section pursuant to section 6(f) of RESPA (12
U.S.C. 2605(f)).”); 12 U.S.C. § 2605(f) (creating a
private right of action for a borrower to sue

54

“[w]hoever fails to comply with any provision of this
section”).
“Section 2605 of RESPA governs the ‘servicing of
mortgage loans and administration of escrow
accounts’ and ‘has a three year statute of
limitationsHennington v. JPMorgan Chase Bank,
N.A., 2018 WL 4474642, *10 (N.D. Ga. Apr. 10, 2018)
(quoting Hudgins v. Seterus, Inc., 192 F.Supp.3d
1343, 1347 (S.D. Fla. 2016)), report and
recommendation adopted, 2018 WL 4473143 (N.D.
Ga. Sept. 6, 2018), which begins to run when the
violation occurs, 12U.S.C.§2614 (“Any action
pursuant to the provisions of section 2605 ... of this
title may be brought in the United States district
court or in any other court of competent jurisdiction,
for the district in which the property involved is
located, or where the violation is alleged to have
occurred, within 3 years in the case of a violation of
55

section 2605 of this title . . . from the date of the
occurrence of the violation[.]” (emphasis supplied)).
Count 1 of the Plaintiffs’ amended complaint
alleges a July 11, 2014 violation of the dual tracking
provisions of 12 C.F.R. § 1024.41(f)(1) (Doc. 7, at 2)
and Count 2 of the amended complaint alleges an
October 2014 violation of § 1024.4l(i) (id. at 4).
Because Plaintiffs did not file their RESPA claims
until May 31, 2019 (see Doc. 1 (original complaint of
Plaintiff Lewis Archer was filed on May 31, 2019)),
more than three years after Plaintiffs’ amended
complaint alleges that the violations of § 1024.41
occurred, those claims are barred by RESPA’s threeyear limitations period.10

10

Even if the Court was to consider that Count 1 of the

complaint alleges a “continuing” violation of § 1024.41(f) until
January 29, 2019, the final disclosure date and the date AFFCU
56

At no point since the institution of this lawsuit
have the Archers made any argument that RESPA’s
three-year limitations period should be equitably
tolled; however, even had they made such an
argument, they do not allege any facts that would

“sent a letter terminating all modification efforts” (Doc. 7, at 3),
Plaintiffs’ claims still remain barred by the three-year statute of
limitations. The same is true even if the Court considers the date
set forth in Plaintiffs’ response in opposition and associated date
referenced in the opposition. (See Doc. 23, at 7 (citation to
January 2015 as being the date the Plaintiffs’ brought to the
attention of the NCUA Defendant’s purported “illegal predatory
conduct”); cf. Doc. 7, Exhibit O (October 21, 2015 letter from the
consumer protection arm of the NCUA, advising Lewis Archer
that based upon AFFCU’s actions in subsequently supplying him
with a copy of the appraisal and refunding him the cost of the
appraisal, his file was being close—based on resolution of the
matter—and advising that his ability to pursue a private right of
action was not being limited if he had a private right of action)).
57

support application of equitable tolling. The Eleventh
Circuit has made clear that “’[i]n order to be entitled
to the benefit of equitable tolling, a petitioner must
act with diligence, and the untimeliness of the filing
must be the result of circumstances beyond his
control.’” McCarley v. KPMG Int% 293 Fed.Appx.
719, 722-23 (llth Cir. Sept. 15, 2008), quoting Drew
v. Department of Corrections, 297 F.3d 1278, 1286-87
(llth Cir. 2002). “The burden of establishing
entitlement to this extraordinary remedy rests with
the petitioner.” Id. at 723, citing Justice v. United
States, 6 F.3d 1474, 1479 (llth Cir. 1993). And while
there “appears to be a circuit split regarding whether
equitable tolling applies to RESPA claims[,]” and the
Eleventh Circuit “has not addressed the issue
directly,” the appellate court has “acknowledged the
potential application of equitable tolling to RESPA
actions.” Id. at 723 n.6 (citations omitted).
58

Even assuming that equitable tolling applies to
RESPA claims, the undersigned finds nothing in the
Archers’ amended complaint (see Doc. 7) in the way
of facts that would excuse the delay in filing their
federal complaint. The amended complaint simply
alleges various violations of RESPA provisions in
2014 (and a final foreclosure date of January 29
2016, the same date that Plaintiffs were advised that
AFFCU was terminating all modification efforts) but
does not allege any facts to explain why they did not
then file their RESPA claims until May 31, 2019, see
McCarley, supra, 293 Fed.Appx. at 723 (affirming
the district court’s grant of summary judgment in
favor of Defendant HSBC Mortgage Corporation on
Plaintiff s RESPA claims on the alternate ground
that those claims were barred by the three-year
statute of limitations because the alleged violations
occurred more than three years before McCarley filed
59

his complaint and even assuming equitable tolling is
applicable to RESPA claims, Plaintiff did not proffer
“any evidence to show the doctrine should apply.”),
either in this Court or in Mobile County Circuit
Court, see 12 U.S.C. § 2614, supra. Instead, it is
apparent from Plaintiffs’ amended complaint (Doc. 7)
and the remaining evidence of record attached to the
amended complaint and documents which this Court
can take judicial notice of that the Archers simply
waited until the ejectment proceedings were all but
completed in state court before filing the instant
lawsuit in an attempt to get a second bite at the
proverbial apple. Under these circumstances, it is
clear to the undersigned that the Court must dismiss

60

Plaintiffs’ RESPA claims (that is, the amended
complaint) as timebarred.11

11

In light of the clear untimeliness of Plaintiffs RESPA

claims, the undersigned pretermits any lengthy discussion of
AFFCU’s alternative argument that the Archers’ RESPA claims
are barred under the doctrine of res judicata. (See Doc. 15, at 712). The undersigned does note parenthetically that though
AFFCU improperly identifies the controlling law as federal
claim preclusion law (see id. at 9-10), compare Kizzire v. Baptist
Health Sys., Inc., 441 F.3d 1306, 1308 (11th Cir. 2006)
(recognizing that where, as here, a federal district court is
“’asked to give res judicata effect to a state court judgment, [the
court] must apply the res judicata principles of the law of the
state whose decision is set up as a bar to further litigation.’”)
with Brosnick v. Wells Fargo Bank, N.A., 2018 WL 6807340, *4
(S.D. Fla. Sept. 25, 2018) (“’When a suit is brought under
federal question jurisdiction, and the federal court “is asked to
give res judicata effect to a state court judgment, it must apply
the res judicata principles of the law of the state whose decision
is set up as a bar to further litigation.’””), this error would not
61

prevent the Court from reaching the merits of AFFCU’s
argument in this regard since “Alabama law on the doctrine Q of
res judicata ... is substantively the same as federal law.”
McCulley v. Bank of America, N.A., 605 Fed.Appx. 875, 878
(11th Cir. Apr. 2, 2015); cf. Kizzire, supra, 441 F.3d at 1308-09
(“Under Alabama law, ‘the essential elements of res judicata
are (1) a prior judgment on the merits, (2) rendered by a court
of competent jurisdiction, (3) with substantial identity of the
parties, and (4) with the same cause of action presented in both
actions.’”) with Ragsdale v. Rubbermaid, Inc., 193 F.3d 1235,
1238 (11th Cir. 1999) (“Under Eleventh Circuit precedent, a
claim will be barred by prior litigation if all four of the following
elements are present: (1) there is a final judgment on the
merits; (2) the decision was rendered by a court of competent
jurisdiction; (3) the parties, or those in privity with them, are
identical in both suits; and (4) the same cause of action is
involved in both cases.”), cert, denied, 530 U.S. 1223, 120 S.Ct.
2237, 147 L.Ed.2d 265 (2000).
In arguing that the first two res judicata elements are not
met (Doc. 23, at 6; see also id. at 3-5), the Archers confuse those
two elements with the fourth element, see Duke v. Nationstar
62

Mortgage, L.L.C., 893 F.Supp.2d 1238, 1246 (N.D. Ala. 2012), as
the Mobile County Circuit (Continued) Court’s granting of
summary judgment in favor of AFFCU in the ejectment action
(that is, granting possession of the house/property to AFFCU),
which was affirmed by the Alabama Court of Civil Appeals,
constitutes a prior judgment (or prior judgments) on the merits,
compare Mars Hill Baptist Church of Anniston, Ala., Inc. v.
Mars Hill Missionary Baptist Church, 761 So.2d 975, 978 (Ala.
1999) (“’A judgment is on the merits when it amounts to a
decision as to the respective rights and liabilities of the parties,
based on the ultimate fact or state of the parties disclosed by
the pleadings or evidence, or both, and on which the right of
recovery depends, irrespective of formal, technical, or dilatory
objections or contentions.’”) with Ex parte Jefferson County, 656
So.2d 382, 385 (Ala. 1995) (“A summary judgment acts as a
judgment on the merits.”) and there is no doubt that both of
these courts are indisputably courts of competent jurisdiction,
see, e.g., Duke, supra, 893 F.Supp.2d at 1246 (“The Circuit
Court of Shelby County was indisputably a court of competent
jurisdiction over the case before it.”). And, of course, the third
res judicata element is satisfied because the parties in this
63

action and the ejectment action are identical (they have simply
“switched” places). See Greene v. Jefferson County Comm’n, 13
So.3d 901, 912 (Ala. 2008) (recognizing that parties are
substantially identical for purposes of res judicata when they
are the same (that is, exactly identical) or in privity with one
another).
The pivotal issue in this case, as in most cases, is whether
the fourth res judicata element is satisfied; that is, whether this
action and the state court ejectment action are the same for res
judicata purposes. And this is where the undersigned does not
reach a specific determination (in light of the Archers’ untimely
assertion of their RESPA claims), even though there is some
facial appeal to AFFCU’s putative implicit argument that this
fourth element is met because the Archers’ current claims were
compulsory counterclaims in the state court ejectment action
and were not properly raised as compulsory counterclaims in
the state court action (see Doc. 15, at 11-12). Compare Duke,
supra, at 1249-50 with Patrick v. CitiFinancial Corp., LLC,
2015 WL 5236031 (M.D. Ala. Sept. 8, 2015) and Clark v. Wells
Fargo Bank, N.A., 24 So.3d 424 (Ala. 2009); see generally
Ala.R.Civ.P. 13(a) (defining compulsory counterclaim and
64

C. Plaintiffs* Motion to Recall Writ of Possession
(Doc. 20). On August 2, 2019, the Archers filed a
motion to recall writ of possession. Therein, the
Plaintiffs initially state they were simply following
instructions of the Mobile County Circuit Court in
“filling out forms to recall a writ of possession” (id. at
l) but then go on to argue that since AFFCU “filed a
motion on 8/1/2019 to make this more than it is,”
they now request this Court “to issue an order for the
defendant itself to immediately recall the writ of
possession and cease and desist all such actions
while this case is ongoing.” (Id. at 2). It is obvious
that the “motion” filed by AFFCU on August 1, 2019,
to which the Archers make reference, is the
Defendant’s supplement to its motion to dismiss

recognizing that a party must assert it in a pleading);
Ala.R.Civ.P. 7(a) (setting forth the limited universe of
pleadings, none of which are an appellate brief).
65

(Doc. 19), to which was attached the Plaintiffs’
purported notice of removal filed in the prior state
court ejectment action (see id., Exhibit 12).
The undersigned recommends that this Court
deny Plaintiffs’ motion to recall writ of possession
(Doc. 20) given the foregoing analysis that the
Archers’ RESPA claims are time-barred. Moreover
even in absence of the statute of limitations analysis,
the undersigned would recommend the denial of the
Plaintiffs’ motion because the Archers have not cited
this Court any caselaw (or other authority) which
establishes that this Court (in what would have to be
regarded as a collateral proceeding) possesses the
power to recall a writ of possession issued by an
Alabama court of competent jurisdiction (that is, the
Circuit Court of Mobile County, Alabama) or the
power to order AFFCU to recall the writ of
possession. When the Circuit Court of Mobile
66

County, Alabama entered judgment in favor of
AFFCU and against the Archers on June 25, 2018,
finding AFFCU entitled to possession of the subject
property, the court specifically authorized issuance of
a writ of possession by the Clerk of Court to the
Sheriff of Mobile County, Alabama “for the execution
of such writ.” (Doc. 15, Exhibit 4). The trial court’s
judgment was affirmed by the Alabama Court of
Civil Appeals on May 17, 2019 (Doc. 15, Exhibit 9)
and the state court ejectment action ended with the
appellate court’s issuance of a certificate of final
judgment of affirmance on June 5, 2019 (see Doc. 15
Exhibit 10).
The fact that the Archers initiated the federal
court litigation on May 31, 2019 (see Doc. l), some
five days before the state court ejectment action
ended, supplies no authority for this Court to
countermand process authorized by the Mobile
67

County Circuit Court (and affirmed by the Alabama
Court of Civil Appeals). After all, the Archers
initiated suit in this Court (see Doc. 1 (entitled a
complaint, not a notice of removal with attached
documents from state court)); they did not remove
the state court ejectment action from the Mobile
County Circuit Court, see 28 U.S.C. § 1446(a) (“A
defendant or defendants desiring to remove any civil
action from a State court shall file in the district
court of the United States for the district and
division within which such action is pending a notice
of removal signed pursuant to Rule 11 of the Federal
Rules of Civil Procedure and containing a short and
plain statement of the grounds for removal, together
with a copy of all process, pleadings, and orders
served upon such defendant or defendants in such
action.” (emphasis supplied)), nor could they have
done so because the state court litigation was, at the
68

r

time of initiation of this suit, still before the Alabama
Court of Civil Appeals and remained there until its
conclusion on June 5, 2019. And, of course, it bears
observation that since May 31, 2019, when Lewis
Archer first initiated this federal action (see Doc^ l)
the Archers have never been in a position to
(procedurally speaking) timely remove the state
court ejectment action to this Court, see 28 U.S.C. §
1446(b)(1) (“The notice of removal of a civil action or
proceeding shall be filed within 30 days after receipt
by the defendant, through service or otherwise, of a
copy of an initial pleading setting forth the claim for
relief upon which such action or proceeding is based .
. . .”), nor would they have ever been successful, from
a substantive standpoint, in removing the state court
ejectment action in a timely manner within 30 days
of the filing of that action on April 11, 2016 (that is,
by May 11, 2016), since the removal (obviously)
69

would have been based upon RESPA counterclaims,
see, e.g., Vaden v. Discover Bank, 556 U.S. 49, 60,
129 S.Ct. 1262, 1272, 173 L.Ed.2d 206 (2009) (“Nor
can federal jurisdiction rest upon an actual or
anticipated counterclaim.”)! Holmes Group, Inc. v.
Vornado Air Circulation Systems, Inc., 535 U.S. 826,
830, 122 S.Ct. 1889, 1893, 153 L.Ed.2d 13 (2002)
(“[T]he well-pleaded complaint rule, properly
understood, [does not] allow0 a counterclaim to serve
as the basis for a district court’s ‘arising under’
jurisdiction.”); HSBC Bank USA Nat’l Ass’n v.
Bobrowski, 2015 WL 4506824, *2 (M.D. Fla. July 23
2015) (“[T]he assertion of federal counterclaims is
insufficient to confer federal question jurisdiction
under § 1331.”).
To the extent the Archers have any remaining
entitlement to recall of the writ of possession (which
does not appear to be the case), they must seek such
70

relief in the state courts of Alabama, as they alluded
to in the first sentence of their motion; this Court
simply lacks the power to take any action with
respect to the writ of possession issued by the Mobile
County Circuit Court, whether by recall the writ
itself or ordering AFFCU to recall the writ. Thus, it
is recommended that the Archers’ motion to recall
writ of possession (Doc. 20) be DENIED on this
alternative basis as well because the Archers’
RESPA claims are time-barred. CONCLUSION
Based upon the foregoing, it is RECOMMENDED
that the Court GRANT Defendant AFFCU’s motion
to dismiss second-amended complaint (Doc. 15), as
supplemented (Doc. 19), and DENY Plaintiffs’ motion
to recall writ of possession (Doc. 20).
DONE this the 17th day of September, 2019
s/P Bradley Murray
UNITED STATES MAGISTRATE JUDGE
71

APPENDIX D
REHEARING DENIAL

William Pryor Chief Judge, Grant and Tjoflat,
Circuit Judges.

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-15182

LEWIS ARCHER,
SHEARIE ARCHER,
Plaintiffs-Appellants,
Versus
AMERICA’S FIRST FEDERAL CREDIT UNION
Defendant-Appellee

Appeal from the United States District Court
for the Southern District of Alabama
Before WILLIAM PRYOR, Chief Judge, GRANT and
TJOFLAT, Circuit Judges
APPENDIX D

72

PER CURIAM:
The Petition for Panel Rehearing filed by Lewis and
Shearie Archer is DENIED.
ORD-41

t

73

j-

a

